Credit Card Rates, Fees and Cost Information
The following disclosure represents important details concerning your credit card. We reserve the right to periodically review your credit standing and to increase
any rate on your new balances, in accordance with applicable law. The information about costs of the card are accurate as of April 1, 2016. You can write us at One
Nevada Credit Union, 2645 South Mojave Road, Las Vegas, NV 89121 or call (800) 388-3000 to inquire if any changes occurred since the effective date.

INTEREST RATES and INTEREST CHARGES
Annual Percentage Rate (APR)
for Purchases, Cash Advances &
Balance Transfers

8.50%, 11.50%, 14.50%, or 17.50%

Paying Interest

Your due date is at least 21 days after we mail your billing statement. We will not charge you interest
on purchases if you pay your entire new purchase balance by the due date each month. For Cash
Advances and Balance Transfers, we will begin charging interest on the transaction date.

Minimum Finance Charge

If you are charged interest, the charge will be no less than $1.00.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of
the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

depending on your credit history. This APR will vary based on the Prime Rate*.

FEES
Fees to Open or Maintain your
Account
• Annual Fee:
• Application Fee:
Transaction Fees
• Balance Transfer:
• Cash Advance:
• ATM Withdrawal:
• Foreign Transaction:
Penalty Fees
• Late Payment
• Over-the-Credit Limit
• Returned Payment

None
None

2% of each transaction, minimum $5.00
2% of each transaction, minimum $5.00
2% of each transaction, minimum $5.00 (does not include non-ONCU ATM fees)
2% of each transaction in U.S. dollars if the transaction does or does not involves a currency
conversion
$25 or your minimum payment required, whichever is less, if your payment is not received by your due date.
None
$25 if your payment is returned for any reason

How We Will Calculate Your Balance: We use a method called “average daily balance including new purchases.” See your account agreement
for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.
OTHER IMPORTANT DISCLOSURES:
SECURITY: YOU SPECIFICALLY GRANT US A CONSENSUAL SECURITY INTEREST IN ALL INDIVIDUAL AND JOINT ACCOUNTS
YOU HAVE WITH US NOW AND IN THE FUTURE TO SECURE REPAYMENT OF CREDIT EXTENDED UNDER THIS AGREEMENT. YOU
ALSO AGREE THAT WE HAVE SIMILAR STATUTORY LIEN RIGHTS UNDER STATE AND/OR FEDERAL LAW. THE GRANTING OF THIS
SECURITY INTEREST IS A CONDITION FOR THE ISSUANCE OF CREDIT UNDER THIS AGREEMENT. IF YOU ARE IN DEFAULT, WE
CAN APPLY YOUR SHARES TO THE AMOUNT YOU OWE. Shares and deposits in an Individual Retirement Account or any other account
that would lose special tax treatment under state or federal law if given are not subject to this security interest. If you have other loans with us,
collateral securing such loans may also secure your obligations under this Agreement, unless that other collateral is your principal residence or
non-purchase money household goods.
*Variable Rate Information: The Annual Percentage Rate may increase or decrease if the highest rate of interest identified as the ‘Prime Rate’ in
the ‘Money Rates’ column of the Wall Street Journal increases or decreases. The Annual Percentage Rate will be equal to the Prime Rate plus a
margin. The interest rate can change within 15 business days of the Prime Rate change.
Daily Periodic Rates: Purchases, Cash Advances, and Balance Transfers: Based on Your Approved Rate
Other Fees: In addition to the fees disclosed above, the following fees may be imposed:
Statement Copy Fee: $5.00
CURewards™ Program: For details on CURewards™ Program benefits and rules, call or write One Nevada Credit Union (Member Services), or
write to PSCU, P.O. Box 31112, Tampa, FL 33631-3112.
If you choose to participate in the CURewards™ Program, points accumulated remain valid for redemption for a five-year period and will be
reported on your monthly Visa® statement. Points are not accrued on delinquent accounts. If at any time you wish to cancel your participation in
this program but retain your Visa® account, you must notify us in writing and return your Visa® card cut in half. Any points balance will be forfeited
and you will be issued a new Visa® card.
The Credit Union reserves the right to cancel this program at any time by providing you with thirty (30) days written notice. The Credit Union also
reserves the right and sole discretion to cancel individual participation in the program based on misuse of the program as determined by the Credit
Union. Program benefits will only be awarded to members in good standing (loan payments current, balances within established limits, no overdrawn accounts).
4/16
										Federally insured by NCUA. Equal Housing Lender.

